           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   CONSERVED FUNDS FOR DECEASED
  BENEFICIARIES WITH NON-RELATED
      REPRESENTATIVE PAYEES

    March 2004    A-13-03-23085




EVALUATION REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY

MEMORANDUM

Date:   March 18, 2004                                                                                Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Conserved Funds for Deceased Beneficiaries with Non-Related Representative Payees
        (A-13-03-23085)


        OBJECTIVE

        Our objective was to assess the effectiveness of the Social Security Administration’s
        (SSA) oversight of non-related representative payees’1 disposition of conserved funds
        for deceased beneficiaries.

        BACKGROUND

        SSA provides benefits to the most vulnerable members of society—the young, the
        elderly, and the disabled. Congress granted SSA the authority to appoint representative
        payees for those beneficiaries2 judged incapable of managing benefit payments.3
        Representative payees (organizations4 or individuals5) receive and manage




        1
         We define non-related representative payees as organizations, institutions, and/or individuals that are
        not related to the beneficiary.
        2
         For the purpose of this report, the term “beneficiary” is used generically for both Old-Age, Survivors and
        Disability Insurance and Supplemental Security Income recipients.
        3
         Sections 205(j) and 1631(a)(2)(A)(ii) of the Social Security Act, as amended (42 U.S.C. §§ 405(j) and
        1383(a)(2)(A)(ii)).
        4
          Program Operations Manual System (POMS), GN 00501.013 states that an organizational
        representative payee includes social service agencies, institutions, or an official of a state or local
        government agency or a financial organization.
        5
         POMS, GN 00501.013 states that an individual representative payee includes someone that a
        beneficiary lives with or a family member or friend who does not live with the beneficiary. It could also be
        a lawyer, a legal guardian, or a volunteer for a Federal or non-profit agency.
Page 2 – The Commissioner
payments on behalf of these beneficiaries. Specifically, representative payees use
Old-Age, Survivors and Disability Insurance and Supplemental Security Income benefit
payments for the beneficiary’s needs.

Representative payees’ duties are to6

      •   use benefit payments to meet the beneficiary’s current and foreseeable needs,

      •   conserve and invest benefit payments not needed to meet the beneficiary’s
          current needs,

      •   maintain accounting records,

      •   report events to SSA that may affect the beneficiary’s entitlement or benefit
          payment amount,

      •   report any changes in circumstances that would affect performance as a
          representative payee, and

      •   provide SSA an annual Representative Payee Report accounting for how
          benefits were spent and invested.

Representative payees who are no longer serving beneficiaries are required to forward
any conserved funds to the Agency. SSA will make the conserved funds available, as
appropriate, to either the new representative payee or the beneficiary.7

When a beneficiary dies, SSA informs the representative payee that any conserved
funds belong to the deceased beneficiary’s estate and should be forwarded to the legal
representative for disposition under State law. If there is no legal representative, the
representative payee should contact the State probate court in the State in which the
beneficiary resides.8

RESULTS OF REVIEW

SSA has oversight policy for disposition of living beneficiaries’ conserved funds by
representative payees. However, SSA’s oversight of the disposition of deceased
beneficiaries’ conserved funds needs improvement. SSA staff advised us that, under
current policy, the Agency has no responsibility to determine the disposition of
conserved funds for deceased beneficiaries. SSA did not determine whether
non-related representative payees complied with SSA’s instructions to forward
conserved funds to the legal representatives for deceased beneficiaries’ estates for

6
    POMS, GN 00502.113B.
7
    POMS, GN 00603.055.
8
    POMS, GN 00603.100.
Page 3 – The Commissioner
disposition under State law. For Fiscal Year (FY) 2002, non-related representative
payees reported $4.6 million in conserved funds for deceased beneficiaries to the
Agency. The Agency does not determine whether these funds were disposed of
appropriately.

SSA POLICY REQUIRES ROBUST MONITORING OF THE DISPOSITION OF LIVING
BENEFICIARIES’ CONSERVED FUNDS

SSA policy prescribes procedures to closely monitor the disposition of conserved funds
of living beneficiaries served by representative payees. Agency policy states,
“A representative payee who has conserved or invested funds for a beneficiary, but is
no longer serving as payee for the beneficiary, must return the funds to SSA for
reissuance to either the successor payee or to the beneficiary in direct payment.”9

Each year, all representative payees (except for on-site institutions10) are required to
submit Representative Payee Reports11 accounting for the benefit payments received,
used, and conserved for SSA beneficiaries and recipients. The Agency uses the
information provided on these Reports to record the amounts conserved by the
representative payee in the beneficiaries’ and recipients’ records.

In addition, if the representative payee cannot be located, dies, or is in the care of an
institution or social agency, the Agency selects a new representative payee and
arranges for the conserved funds to be returned to SSA.12 SSA issues the conserved
funds to the new representative payee.

SSA CAN IMPROVE ITS OVERSIGHT OF THE DISPOSITION OF DECEASED
BENEFICIAIRES’ CONSERVED FUNDS

There is no specific oversight policy for the disposition of conserved funds by
representative payees for deceased beneficiaries. However, SSA does have a
responsibility for ensuring representative payees carry out their fiduciary duties after the
beneficiary’s death. As a steward of the programs administered by SSA, the Agency is
accountable for safeguarding assets against fraud, waste, and abuse. The public must
be confident that these programs are administered properly and funds are accurately
collected, accounted for, and disbursed to the correct individuals for the appropriate
amounts and use.



9
    POMS, GN 00603.100.
10
  SSA Publication No. 17-013, Social Security: Guide for Organizational Representative Payees,
July 2001 states that state mental institutions that participate in the on-site review program and serve as
representative payee for a number of beneficiaries are exempt from completing an annual report form.
11
    SSA-623, SSA-6230, or SSA-6233.
12
     POMS, GN 00603.110.
Page 4 – The Commissioner
Office of Management and Budget Circular A-123, Management Accountability and
Control Standards, states agencies must take systematic and proactive measures to
develop and implement appropriate, cost-effective management controls. Management
controls (internal controls) are policies and procedures used to reasonably ensure
assets are safeguarded against waste, loss, unauthorized use, and misappropriation.13

SSA did not have adequate policies and procedures to determine whether non-related
representative payees for deceased beneficiaries properly disposed of conserved funds.
SSA’s policy states:

       “If the terminating event is the death of the beneficiary, notify the payee and any
       former payee who was permitted to continue administering conserved benefits.
       Inform the payee(s) that the benefits. . . (including income earned on the
       benefits and any benefits he/she has conserved since his/her last accounting)
       belong to the deceased beneficiary’s estate. The benefits should be turned
       over to the legal representative of the beneficiary’s estate for disposition under
       State law.”14

In FY 2002, 10,315 representative payees reported to SSA about $6.9 million in
conserved funds for deceased beneficiaries (see Table 1). Of the 10,315 representative
payees reporting conserved funds for the beneficiaries served, 6,785 were non-related
representative payees. As of April 2003, non-related representative payees reported
about $4.6 million in conserved funds.15

         Table 1. Related and Non-Related Representative Payees and Conserved Funds
                                   Reported for FY 2002

     Type of Payee               Number of                     Conserved                        Percentage
                               Representative                    Funds                           of Total
                                  Payees
 Non-related
  OASDI                                     76                        $247,599                             4
  SSI                                    6,709                       4,326,461                            62
 Subtotal Non-
 Related                                 6,785                       4,574,060                            66
 Related
  OASDI                                     65                       $155,582                             2
  SSI                                    3,465                      2,201,806                            32
 Subtotal Related                        3,530                      2,357,388                            34
        Totals                          10,315                     $6,931,448                           100
*Data obtained from SSA’s Supplemental Security Record and Old-Age, Survivors and Disability Insurance conserved fund file.


13
  Office of Management and Budget Circular A-123, Management Accountability and Control Standards,
Section II.
14
     POMS, GN 00603.100.
15
     We did not verify conserved fund balances.
Page 5 – The Commissioner
SSA staff advised us that, under current policy, the Agency has no responsibility to
determine the disposition of conserved funds for deceased beneficiaries. SSA’s Office
of Income Security Programs’ management stated that independent verification of the
disposition of conserved benefits by non-related representative payees for deceased
beneficiaries is not required.

CONCLUSIONS AND RECOMMENDATIONS

SSA policy prescribes the disposition of living beneficiaries’ conserved funds by
representative payees. However, SSA needs to improve its oversight of the disposition
of deceased beneficiaries’ conserved funds by non-related representative payees.
Improved oversight would provide assurance these conserved funds are forwarded to
the legal representatives of the beneficiary’s estate. We believe SSA has a
responsibility to ensure that conserved funds are disposed of properly. Within the
framework of its existing policy and procedures, SSA has opportunities to improve
oversight of non-related representative payees’ disposition of deceased beneficiaries’
conserved funds.

We recommend SSA:

1. Develop specific policy to define the oversight responsibilities of non-related
   representative payees’ disposition of conserved funds after the death of a
   beneficiary.
2. Modify its site review procedures to include reviews of deceased beneficiaries’
   conserved funds held by non-related representative payees.
3. Remind non-related representative payees during site reviews of the policy for
   proper disposition of conserved funds for deceased beneficiaries.

AGENCY COMMENTS

SSA agreed with two of our three recommendations, but did not agree with our first
recommendation. SSA stated, “Under the Social Security Act (the Act), SSA does not
have an oversight responsibility after the death of a beneficiary, and therefore, our [the
Agency’s] authority is limited.” However, SSA is taking action on all our
recommendations. The full text of SSA’s comments is included in Appendix B.

OIG RESPONSE

Although SSA disagreed with Recommendation 1, the Agency stated, it “will modify
instructions to require our [the Agency’s] reviewers, when conducting on-site reviews, to
remind representative payees of the requirement to turn over conserved funds, and to
ask representative payees if they have turned over conserved funds, to a deceased
beneficiary’s estate.” SSA’s actions are responsive to the intent of our
recommendation.
Page 6 – The Commissioner
OTHER MATTERS

During our audit of a representative payee, we determined SSA staff advised the
representative payee to return to the Agency conserved funds belonging to deceased
beneficiaries. This is contrary to existing SSA policy. SSA’s policy states:

       “If the terminating event is the death of the beneficiary, notify the payee
       and any former payee who was permitted to continue administering
       conserved benefits. Inform the payee(s) that the benefits…(including
       income earned on the benefits and any benefits he/she has conserved
       since his/her last accounting) belong to the deceased beneficiary’s
       estate. The benefits should be turned over to the legal representative of
       the beneficiary’s estate for disposition under State law.”16

On November 24, 2003, we reviewed the Master Beneficiary and Supplemental Security
Records of 32 deceased beneficiaries served by the representative payee. The
representative payee forwarded conserved funds totaling approximately $10,820. Of
the 32 deceased beneficiary records reviewed, $1,510 of the conserved funds received
was applied to an existing overpayment for 8 deceased beneficiaries and approximately
$4,130 for 10 deceased beneficiaries was still in the Agency’s possession. We could
not verify the disposition of $5,180 in conserved funds for 1717 deceased beneficiaries.




                                                         S
                                                         Patrick P. O’Carroll, Jr.




16
     POMS, GN 00603.100.
17
  In three cases, the Agency applied a partial offset to an existing overpayment. We could not verify the
disposition of the remaining balance.
                                     Appendices
APPENDIX A - Acrynoms

APPENDIX B - Scope and Methodology

APPENDIX C - Agency Comments

APPENDIX D - OIG Contacts and Staff Acknowledgments
                                                      Appendix A
Acronyms
FY      Fiscal Year

OASDI   Old-Age, Survivors and Disability Insurance

OIG     Office of the Inspector General

POMS    Program Operations Manual System

SSA     Social Security Administration

SSI     Supplemental Security Income
                                                                         Appendix B
Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Program Operations Manual System1 and policies and procedures
    pertaining to the disposition of conserved funds for deceased beneficiaries.

•   Interviewed Social Security Administration (SSA) personnel to obtain an
    understanding of the policies and procedures followed for disposition of conserved
    funds by non-related representative payees.

•   Obtained from SSA’s Supplemental Security Records and Old-Age, Survivors and
    Disability Insurance file containing benefits set aside by representative payees, a list
    of 10,315 deceased beneficiaries with conserved funds totaling $6,931,448 for the
    period October 2001 through September 2002.

We did not assess the internal controls. Testing of internal controls was not required to
meet the objective of this review. We did not determine the reliability of the computer
processed data. However, we were able to use the data for their intended purpose. We
obtained deceased beneficiaries’ conserved fund balances from SSA’s Supplemental
Security Records and from Agency files used to capture Old-Age, Survivors and
Disability Insurance benefits set aside by representative payees. Additionally, we
obtained the Master Beneficiary and Supplemental Security Records of 32 deceased
beneficiaries to determine whether conserved funds were returned and accepted by the
Agency. We did not test for completeness, accuracy, or reliability. The data obtained
were used to report the amount of conserved funds for deceased beneficiaries reported
to, and received by, the Agency. Therefore, data reliability was not assessed to meet
the objective of the evaluation.

The entity reviewed was the Office of Beneficiary and Determinations Services within
the Office of Income Security Programs. We performed our evaluation from April
through June 2003 in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




1
Sections GN 00603.100 and NL 00703.204.
                  Appendix C
Agency Comments
                                            SOCIAL SECURITY


MEMORANDUM                                                                            104-24-1066


Date:      March 5, 2004                                                             Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Conserved Funds for Deceased Beneficiaries
           With Non-Related Representative Payees” (A-13-03-23085)--INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Trudy Williams at extension 50380.

           Attachment:
           SSA Response
           S1J-3:TWilliams 2/23/04




                                                           C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “CONSERVED
FUNDS FOR DECEASED BENEFICIARIES WITH NON-RELATED
REPRESENTATIVE PAYEES” (A-13-03-23085)

Thank you for the opportunity to review and comment on the subject draft report. Our specific
comments to each recommendation are provided below.

Recommendation 1

SSA should develop specific policy to define the oversight responsibilities of non-related
representative payees’ disposition of conserved funds after the death of a beneficiary.

SSA Comment

We disagree. Under the Social Security Act (the Act), SSA does not have an oversight
responsibility after the death of a beneficiary, and therefore, our authority is limited. When we
receive a report of death, the Program Operations Manual System (POMS) requires us to notify
the representative payee (Rep Payee) that any conserved funds belong to the beneficiary’s estate
and should be forwarded to the estate for proper disposition. Conserved funds are property of the
beneficiary and upon the death of a beneficiary State law governs the disposition of the
beneficiary’s property. The death of the beneficiary ends our oversight responsibilities, as we
have no standing or authority in matters of the beneficiary’s estate. However, we will modify
instructions to require our reviewers, when conducting on-site reviews, to remind Rep Payees of
the requirement to turn over conserved funds, and to ask Rep Payees if they have turned over
conserved funds, to a deceased beneficiary’s estate.

Recommendation 2

SSA should modify its site review procedures to include reviews of deceased beneficiaries’
conserved funds held by non-related Rep Payees.

SSA Comment

We agree. While the Act does not require this, we note that the new POMs provide that when
selecting a sample of beneficiaries whose accounting records will be reviewed at an on site visit,
SSA, if possible, will select some cases where the Rep Payee relationship ended. In the case of
deceased beneficiaries, SSA will look for evidence that the Rep Payee turned over conserved
funds to the legal representative of the beneficiary’s estate. On February 2, 2004, we released an
inter-component review draft (IRD) of a new POMS section with instructions for conducting site
reviews. The IRD includes instructions for reviewers to check if the Rep Payee turned over
conserved funds to a deceased beneficiary’s estate. We expect the final POMS instructions to be
released in the Summer of 2004.




                                               C-2
Recommendation 3

SSA should remind non-related Rep Payees during site reviews of the policy for proper
disposition of conserved funds for deceased beneficiaries.

SSA Comment

We agree. The POMS IRD also includes instructions for reviewers, during the site review, to
remind the Rep Payee of SSA’s policy for disposition of conserved funds for deceased
beneficiaries.

Other Comments

On page 6 of the report, under “OTHER MATTER,” OIG mentions that during their audit of a
Rep Payee, they determined that SSA staff had advised the Rep Payee to return conserved funds
of a deceased beneficiary to SSA. This is contrary to our policy. Current POMS instructions,
GN 00603.055 - Transfer of Conserved Funds, state that a Rep Payee must return conserved
funds to SSA for re-issuance to a successor payee or to a beneficiary in direct pay. In addition,
POMS GN 00603.100 - Entitlement Terminated—Notice to be Given About Conserved Funds,
provides instructions for handling conserved funds when the beneficiary has died. We will issue
a reminder to SSA staff regarding policy differences for handling conserved funds for living
versus deceased beneficiaries.




                                               C-3
                                                                       Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Brian Karpe, Audit Manager, General Management (410) 966-1029

Acknowledgments

In addition to those named above:

   Tracey Edwards, Senior Auditor

   Kim Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-03-23085.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
